No.____

IN THE

SUPREME COURT OF THE UNITED STATES
_____________________
PETER BOBAL

Petitioner,

v.
UNITED STATES OF AMERICA,
_____________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
_____________________
PETITION FOR A WRIT OF CERTIORARI
_____________________
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
TRACY DREISPUL*
ASSISTANT FEDERAL PUBLIC DEFENDER
DEPUTY CHIEF OF APPEALS
*Counsel of Record
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
Telephone (305) 536-6900
Email: Tracy_Dreispul@fd.org
Counsel for Petitioner
APRIL 29, 2021

APPENDIX

TABLE OF APPENDICES
Appendix A: Opinion of the U.S. Court of Appeals for the Eleventh Circuit
United States v. Bobal, 981 F.3d 971 (11th Cir. 2020) .......................................A
Appendix B: Amended Judgment
United States v. Bobal, 18-cr-60072-BB (S.D. Fla. Mar. 15, 2019) ..................... B

APPENDIX A

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

981 F.3d 971
United States Court of Appeals, Eleventh Circuit.

[2]

Synopsis
Background: Following defendant's convictions for
attempting to persuade a minor to engage in sexual activity
and committing a felony involving a minor while required
to register as a sex offender, he filed motion for new trial.
The United States District Court for the Southern District of
Florida, No. 0:18-CR-60072-BB-1, Beth Bloom, J., 2018 WL
4323786, denied the motion. Defendant appealed.

[3]

[4]

[2] imposition of special condition of supervised release
restricting defendant's computer use did not amount to plain
error.
Affirmed.
Procedural Posture(s): Appellate Review; Post-Conviction
Review.

Criminal Law
General

Necessity of Objections in

Criminal Law

In argument in general

Criminal Law

Summing up

Defendant convicted of committing a felony
involving a minor while required to register
as a sex offender was not entitled to a new
trial based on prosecutor's statements during
closing argument, that defendant stipulated to
the offense, instead of just one element of
the offense, and that the “only verdict” was
a verdict of guilty; when viewed in context,
statements were proper and based on the
evidence presented, and even if prosecutor's
statements were improper, any error was cured
by trial court's jury instruction that the lawyers'
statements were not evidence.

[1] defendant was not entitled to a new trial based on
prosecutor's statements during closing argument, and

[1]

Criminal Law
General

An error cannot be “plain,” under the plain error
standard of review, if neither the United States
Supreme Court nor the Court of Appeals has ever
resolved the issue, and other circuits are split on
it.

Holdings: The Court of Appeals, William H. Pryor, Chief
Judge, held that:

1 Cases that cite this headnote
[5]

West Headnotes (15)

Necessity of Objections in

The Court of Appeals may reverse a conviction
under the plain error standard of review only
if the error is plain, it affects substantial rights,
and it seriously affects the fairness, integrity, or
public reputation of the judicial proceeding.

UNITED STATES of America, Plaintiff-Appellee,
v.
Peter Robert BOBAL, Defendant-Appellant.
No. 19-10678
|
(November 30, 2020)

Criminal Law
General

Criminal Law

For prosecution

A prosecutor's closing argument will constitute
misconduct only if it was improper and
prejudiced the substantial rights of the defendant.

Necessity of Objections in

1 Cases that cite this headnote

The Court of Appeals reviews unpreserved
issues for plain error.
[6]

Criminal Law
counsel

Arguments and conduct of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

Criminal Law
Statements as to Facts,
Comments, and Arguments

attempting to persuade a minor to engage
in sexual activity and committing a felony
involving a minor while required to register
as a sex offender from using a computer
except for work and with the prior permission
of the district court did not amount to plain
error; although defendant's term of supervised
release was for life, condition was reasonably
related to legitimate need to protect the public
from potential abuses of the internet, and no
United States Supreme Court decision or binding
decision of Court of Appeals invalidated such a
condition on facts similar to defendant's case.

An appellate court assesses the prejudicial effect
of a prosecutor's closing arguments by evaluating
them in the context of the trial as a whole and
assessing their probable impact on the jury.

[7]

Criminal Law

In argument in general

To warrant a new trial because of the prosecutor's
statements during closing arguments, there must
be a reasonable probability that but for the
prosecutor's improper remarks, the outcome
would be different.

[8]

Criminal Law
Arguments

Statements as to Facts and

1 Cases that cite this headnote
[12]

Criminal Law
Jury

2 Cases that cite this headnote

While a jury may render a verdict at odds with the
evidence or the law, neither the court nor counsel
should encourage jurors to violate their oath.

Criminal Law
evidence

1 Cases that cite this headnote
Criminal Law
dispositions

[13]

Probation and related

Imposition of special condition of supervised
release prohibiting defendant convicted of

Sentencing and Punishment
Particular Conditions

Other

Restrictions on the use of a computer during
a sex offender's term of supervised release
are reasonably related to legitimate sentencing
considerations, namely the need to protect both
the public and the sex offender from potential
abuses of the internet.

Matters not sustained by

Statements and arguments of counsel are not
evidence, and any improper statements can be
rectified by the district court's instruction to
the jury that only the evidence in the case be
considered.

[11]

Other

A district court does not commit plain error
by imposing a computer restriction as a special
condition of supervised release for a convicted
sex offender, even if the term of supervised
release is for life.

Instructions as to Duties of

Criminal Law
Comments to jurors as to
duties and obligations

[10]

Probation and related

Sentencing and Punishment
Particular Conditions

Prosecutors are permitted to make colorful
and perhaps flamboyant remarks during closing
arguments if they relate to the evidence adduced
at trial.

[9]

Criminal Law
dispositions

1 Cases that cite this headnote
[14]

Sentencing and
Punishment
Construction, operation, and
compliance
Restrictions on a sex offender's use of a computer
during the offender's term of supervised release
are not overly broad when the offender can still
use the Internet for valid purposes by obtaining
his probation officer's prior permission.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

1 Cases that cite this headnote
[15]

Sentencing and Punishment
Validity or
reasonableness of conditions in general
A district court may impose reasonable
conditions that deprive a defendant of some
freedoms enjoyed by law-abiding citizens during
a term of supervised release.
1 Cases that cite this headnote

Attorneys and Law Firms
*973 Jonathan E. Kobrinski, Daniel Matzkin, Emily M.
Smachetti, Jason Wu, Assistant U.S. Attorney, U.S. Attorney
Service-SFL, MIAMI, FL, for Plaintiff-Appellee.
Lori E. Barrist, Federal Public Defender's Office, West Palm
Beach, FL, Michael Caruso, Federal Public Defender, Daryl
Elliott Wilcox, Federal Public Defender's Office, Lauderdale,
FL, Sara Wilson Kane, Federal Public Defender's Office,
Miami, FL, for Defendant-Appellant.
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 0:18-CR-60072-BB-1
Before WILLIAM PRYOR, Chief Judge, HULL and
MARCUS, Circuit Judges.
Opinion
WILLIAM PRYOR, Chief Judge:
This appeal requires us to decide whether a district court
plainly erred by denying a criminal defendant's motion for a
new trial and by imposing a restriction on using a computer
as a special condition of a lifetime term of supervised release.
After a bifurcated trial, a jury convicted Peter Bobal of
attempting to persuade a minor to engage in sexual activity
and committing a felony involving a minor while required to
register as a sex offender. Bobal's sentence included a lifetime
term of supervised release, during which he could not use
a computer except for work and with the permission of the
district court. Bobal argues that the prosecutor misled the
jury in her closing argument and that his computer restriction
is unconstitutional in the light of
Packingham v. North
Carolina, ––– U.S. ––––, 137 S. Ct. 1730, 198 L.Ed.2d 273

(2017). We conclude that the prosecutor's closing argument
was not improper. We also conclude that
Packingham is
distinguishable because Bobal's computer restriction does not
extend beyond his term of supervised release, it is tailored to
his offense, and he can obtain the district court's approval to
use a computer for permissible reasons. We affirm.

I. BACKGROUND
In October 2017, a 62-year-old woman living with her 18year-old daughter in Hallandale Beach, Florida, found a note
on her door. The note said something like “I think you're
beautiful,” although it was unclear whether the note was
addressed to the woman or her daughter. It included a phone
number but no name. The woman suspected that her neighbor,
Peter Bobal, had left it. She asked her friend, a 60-year-old
man, to call the number. He did, and he reached Bobal's
voicemail. The friend hung up without leaving a message, but
a *974 short time later he began receiving text messages
from Bobal. Bobal wrote that he was a single male, and he
asked the caller to text him back. The friend did not respond.
After continuing to ignore Bobal for a couple months, the
friend decided to reply and to pose as a 14-year-old girl to
see how Bobal would react. Bobal responded by asking if the
girl's mother was single, and he said that he could talk with
either the girl or her mother about anything. He continued
texting the fictitious girl, and he eventually asked her to send
him a picture. The man posing as the girl offered the excuse
that he was at school, but he asked Bobal for a picture. Bobal
responded by asking if he should send one of his face or of
him naked. The man never answered, so Bobal sent a picture
of his face. But after the man commented that Bobal had sent
a picture of his face “instead of the other,” Bobal sent the
fictitious girl a picture of his penis. The man posing as the girl
then contacted the Federal Bureau of Investigation and turned
over copies of his text messages with Bobal.
A special agent of the Bureau assumed the identity of
the fictitious 14-year-old girl. He exchanged numerous text
messages with Bobal, many of which were sexual in nature.
Eventually, Bobal and the special agent arranged to meet.
When Bobal arrived at the agreed-upon meeting place, the
special agent arrested him.
A federal grand jury indicted Bobal on two counts: using
a facility and means of interstate commerce to knowingly
attempt to persuade, induce, entice, and coerce a minor

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

to engage in sexual activity, 18 U.S.C. § 2422(b), and
committing a felony offense involving a minor after being
required to register as a sex offender, id. § 2260A. Bobal had
previously been convicted in Florida for using a computer
to solicit a child to engage in sexual activity. At trial, Bobal
stipulated to the second element of the second count: at the
time of the alleged criminal misconduct, he was a registered
sex offender.

in connection with authorized employment.” Bobal did not
object to these special conditions.

The district court held a two-day, bifurcated jury trial. It did
not inform the jury about the charge under section 2260A
until after the jury convicted Bobal of the charge under
section 2422(b). In the trial for the latter charge, neither the
government nor Bobal called any witnesses or offered any
evidence other than Bobal's stipulation.

2009);
United States v. Pendergraft, 297 F.3d 1198, 1211
(11th Cir. 2002). We may reverse only if the error is plain, it
affects substantial rights, and it “seriously affects the fairness,
integrity, or public reputation of the judicial proceeding.”

The prosecutor gave a short closing argument in which
she explained the two elements of section 2260A: first, the
defendant committed a felony offense involving a minor,
and second, the defendant was required to register as a sex
offender at the time of the offense. She explained that Bobal's
stipulation about being a registered sex offender satisfied the
second element: “So the Defense is telling you: ‘We stipulate
that the Government proves Count 2. I was a registered sex
offender. I was required to register as a sex offender.’ ” And
the prosecutor then asserted that the guilty verdict for section
2422(b) satisfied the first element of section 2260A. She
concluded, “So the only verdict as to Count 2 is a verdict of
guilty.”
Bobal did not object to the prosecutor's statements, and he
waived his own closing argument. The jury then convicted
him of violating section 2260A.
Later that day, after the trial ended, Bobal moved the district
court for a new trial on the second count. He argued that the
prosecutor had misstated the law when she said that “the only
verdict as to Count 2 is a verdict of guilty” because the jury
was free to reevaluate the evidence as to the first count. The
district court denied the motion.
*975 The district court sentenced Bobal to 240 months
of imprisonment followed by a lifetime term of supervised
release. As a special condition of supervised release, it
ordered that Bobal “shall not possess or use a computer that
contains an internal, external or wireless modem without the
prior approval of the Court.” And it further ordered that
Bobal “shall not possess or use any computer; except that [he]
may, with the prior approval of the Court, use a computer

II. STANDARD OF REVIEW
[1]

[2]

[3] We review unpreserved issues for plain error.

United States v. Moran, 573 F.3d 1132, 1137 (11th Cir.

Pendergraft, 297 F.3d at 1211. An error cannot be “plain”
if “neither the Supreme Court nor this Court has ever resolved
[the] issue, and other circuits are split on it.” United States v.
Aguillard, 217 F.3d 1319, 1321 (11th Cir. 2000).

III. DISCUSSION
Bobal argues that the district court erred by denying his
motion for a new trial and asks that we reverse his
conviction for violating section 2260A. He also contends that
the computer restriction is unconstitutional in the light of
Packingham. Because Bobal did not contemporaneously
object either to the prosecutor's closing argument or to his
sentence, we review his arguments for plain error, and we
reject them both.

A. The District Court Correctly Denied
Bobal's Motion for a New Trial.
[4] Bobal argues that the district court should have granted
his motion for a new trial for the charge under section
2260A because the prosecutor made two misstatements
during her closing argument. First, the prosecutor said that
Bobal stipulated to the second count instead of just one
element of that count. Second, she told the jury that “the only
verdict as to Count 2 is a verdict of guilty” when the jury was
actually free to reevaluate the evidence for the first count and
to reach an inconsistent verdict.
[5]
[6]
[7] The prosecutor's closing argument will
constitute misconduct only if it was improper and prejudiced
the substantial rights of the defendant. United States v.
Taohim, 817 F.3d 1215, 1224 (11th Cir. 2013). We assess

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

the prejudicial effect of arguments by “evaluat[ing] them
in the context of the trial as a whole and assess[ing] their
probable impact on the jury. To warrant a new trial, there
must be a reasonable probability that but for the remarks, the
outcome would be different.” Id. (internal quotation marks
and citation omitted). We conclude that the district court did
not err in denying Bobal's motion for a new trial because
the prosecutor's statements were not improper and did not
prejudicially affect Bobal's substantial rights.
In explaining Bobal's stipulation to the jury, the prosecutor,
paraphrasing Bobal, said, “We stipulate that the Government
proves Count 2,” and on appeal, the government concedes
that this statement was an “isolated slip of the tongue.” But,
during the trial, the prosecutor immediately followed that
“slip” with, “I was a registered sex offender. I was required to
register as a sex offender.” From the full context of the quote,
a reasonable juror would have understood the prosecutor to
contend *976 that Bobal had stipulated to only one element
of section 2260A—that he was required to register as a sex
offender at the time of the offense—not the entire count.
[8] [9] The prosecutor's statement that “the only verdict as
to Count 2 is a verdict of guilty” was clearly an argument
meant to persuade the jury, not an instruction as to how it
must vote. We allow lawyers to make “colorful and perhaps
flamboyant remarks if they relate to the evidence adduced
at trial,”
United States v. Bailey, 123 F.3d 1381, 1400
(11th Cir. 1997) (internal quotation marks omitted), and the
prosecutor's remarks conveyed nothing more than elementary
logic. Bobal's stipulation that he was a registered sex offender
satisfied one of the two elements of section 2260A. His
conviction for violating section 2422(b)—delivered earlier
that day by the exact same jury—satisfied the other. Because
Bobal satisfied both elements, he was necessarily guilty of
violating section 2260A. To be sure, the jury could have
rendered an inconsistent verdict. But “[w]hile we recognize
that a jury may render a verdict at odds with the evidence or
the law, neither the court nor counsel should encourage jurors
to violate their oath.”
United States v. Trujillo, 714 F.2d
102, 106 (11th Cir. 1983).
[10] Neither of the prosecutor's statements was improper.
But even if they were improper, “statements and arguments
of counsel are not evidence, [and] improper statements can
be rectified by the district court's instruction to the jury that
only the evidence in the case be considered.” United States v.
Smith, 918 F.2d 1551, 1562 (11th Cir. 1990). Here, the district

court twice instructed the jury that the lawyers’ statements
were not evidence. So even if there were something wrong
with the prosecutor's closing argument, the district court cured
the problem, and the prosecutor's statements do not warrant a
new trial. We affirm Bobal's conviction for violating section
2260A.

B. A Restriction on Computer Usage as a Special
Condition of a Lifetime Term of Supervised
Release Is Not Plainly Unconstitutional.
[11] Bobal next challenges the special condition of his
supervised release that prohibits him from using a computer
except for work and with the prior permission of the district
court. He contends that this restriction is unconstitutional. But
our precedents foreclose his argument.
[12] [13] [14] A district court does not commit plain error
by imposing a computer restriction as a special condition
of supervised release, even if the term of supervised release
is life. We held in
United States v. Zinn that a limited
restriction on a sex offender's ability to use the internet while
on a three-year period of supervised release was “a necessary
and reasonable condition of supervised release” that did not
burden the offender's rights under the First Amendment.
321 F.3d 1084, 1086, 1093 (11th Cir. 2003). Such
restrictions are reasonably related to legitimate sentencing
considerations, namely “the need to protect both the public
and sex offenders themselves from ... potential abuses” of
the internet.
Id. at 1093. And computer restrictions are
not overly broad when a sex offender on supervised release
can “still use the Internet for valid purposes by obtaining his
probation officer's prior permission.”
Id. Later, in United
States v. Carpenter, we held that a district court did not plainly
err by imposing a computer restriction as a special condition
of supervised release for a period of life. 803 F.3d 1224, 1239–
40 (11th Cir. 2015).
Bobal contends that Carpenter does not help us to resolve this
appeal, but we disagree. To be sure, the issue we addressed
*977 in Carpenter was whether a computer restriction
as a special condition of a lifetime period of supervised
release was unreasonable, not whether it violated the First
Amendment. Id. at 1228. We also reached our conclusion in
Carpenter in part because, even if there was any error in the
length of the restriction, Carpenter invited it by asking the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

district court to sentence him to a lifetime period of supervised
release. Id. at 1239. But we also stated that because “no case
of the Supreme Court or this Court says that a condition like
this one cannot be imposed ... there can be no plain error.” Id.
Bobal argues that the Supreme Court abrogated our
precedents in Packingham v. North Carolina, when it held
that a North Carolina law prohibiting registered sex offenders
from accessing social networking websites that permitted
children to be present violated the First Amendment,
S. Ct. at 1733, 1738, but

137

Packingham is distinguishable for

at least three reasons. First, the state law in
Packingham
restricted sex offenders even after they had completed their
sentences.
Id. at 1737. Bobal's computer restriction, by
contrast, is a special condition of his supervised release and
does not extend beyond his sentence. Second, the state law
in
Packingham applied to all registered sex offenders, not
only those who had used a computer or some other means of
electronic communication to commit their offenses.
137
S. Ct. at 1733. The Supreme Court explained that it was
not holding that the First Amendment bars the enactment of
“more specific laws than the one at issue.”
Id. at 1737.
Indeed, the Court “assumed that the First Amendment permits
a State to enact specific, narrowly tailored laws that prohibit
a sex offender from engaging in conduct that often presages
a sexual crime, like contacting a minor or using a website

the troubling fact that the law imposes severe restrictions
on persons who already have served their sentence and are
no longer subject to the supervision of the criminal justice
system is also not an issue before the Court.” Packingham,
137 S. Ct. at 1737. Bobal understands this language to
mean that the holding of
Packingham applies to all
computer restrictions, regardless of whether the defendant is
on supervised release or has completed his sentence.
[15] We disagree. The sentence in question clarified that
the Supreme Court decided only whether the North Carolina
law violated the First Amendment, not whether the law was
unconstitutional for other reasons not raised in the appeal.
Nothing in
Packingham undermines the settled principle
that a district court may “impose reasonable conditions that
deprive the offender of some freedoms enjoyed by lawabiding citizens” during supervised release.
United States
v. Knights, 534 U.S. 112, 119, 122 S.Ct. 587, 151 L.Ed.2d
497 (2001). Several of our sister circuits have *978 likewise
decided that, even after
Packingham, a district court does
not commit plain error by imposing a restriction on computer
usage as a special condition of supervised release. See United
States v. Perrin, 926 F.3d 1044, 1049–50 (8th Cir. 2019);
United States v. Halverson, 897 F.3d 645, 658 (5th Cir.
2018);
2017).

United States v. Rock, 863 F.3d 827, 831 (D.C. Cir.

to gather information about a minor.”
Id. Bobal used an
electronic device to attempt to persuade a minor with whom
he had never communicated in person to have sex with
him. His computer restriction prevents him from engaging in
activity that could result in his repeating that offense. Third,

Bobal urges us to follow the Third Circuit, which reached

unlike the state law in
Packingham, Bobal's computer
restriction is not a “complete bar to the exercise of [his] First

Packingham, blanket internet restrictions will rarely be

Amendment rights.”
Id. at 1738. Instead, it allows Bobal
to obtain court permission to use a computer in connection
with employment. And Bobal can also ask the district court to
modify the terms of his supervised release for other reasons.
See
18 U.S.C. § 3583(e)(2); Fed. R. Crim. P. 32.1(c). The
computer restriction does not leave Bobal without recourse to
protect his First Amendment rights.

the opposite conclusion in

United States v. Holena under

an abuse-of-discretion standard.
906 F.3d 288, 290, 295
(3d Cir. 2018). The Third Circuit stated that, “[u]nder

tailored enough to pass constitutional muster.”

Id. at 295.

And it concluded that “even under Packingham’s narrower
concurrence,” a blanket computer restriction fails because it
“precludes access to a large number of websites that are most
unlikely to facilitate the commission of a sex crime against a
child.”

Id. (internal quotation marks omitted).

Bobal urges us to adopt a more sweeping interpretation of

Holena read the opinions in
Packingham too broadly.
Both the majority opinion and the concurring opinion in

Packingham. He cites a parenthetical sentence from the
opinion, where the Supreme Court said, “Of importance,

Packingham agreed that the North Carolina law infringed
the First Amendment rights of registered sex offenders, who

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Bobal, 981 F.3d 971 (2020)
28 Fla. L. Weekly Fed. C 2211

would be committing an entirely new felony if they accessed
certain websites. But neither opinion addressed whether
the First Amendment is violated by a special condition of
supervised release for a sex offender who is serving a sentence
for an offense involving electronic communications sent to a
minor.

IV. CONCLUSION
We AFFIRM Bobal's conviction and sentence.
All Citations
981 F.3d 971, 28 Fla. L. Weekly Fed. C 2211

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

APPENDIX B

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 1 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 7

UNITED STATES DISTRICT COURT
Southern District of Florida
Fort Lauderdale Division
UNITED STATES OF AMERICA

v.

PETER ROBERT BOBAL

JUDGMENT IN A CRIMINAL CASE
Amended Judgment
REASON FOR AMENDMENT: To reflect proper
Date of imposition of sentence. (see page one)
Case Number: 18-60072-CR-BLOOM-001
USM Number: 17322-104
Counsel For Defendant: DARYL WILCOX
Counsel For The United States: M. CATHERINE
KOONTZ
Court Reporter: Yvette Hernandez

The defendant was found guilty on count(s) 1 & 2 of the indictment. of the indictment.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

18 U.S.C. § 2422(b)
18 U.S.C. § 2260(A)

Enticement of a minor
Penalties for a registered sex offender

OFFENSE
ENDED
03/14/2018
03/14/2018

COUNT
1
2

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
All remaining counts are dismissed on the motion of the government.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
attorney of material changes in economic circumstances.

*Date of Imposition of Sentence: 2/15/2019

____________________________________________
Beth Bloom
United States District Judge

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 2 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 7

DEFENDANT: PETER ROBERT BOBAL
CASE NUMBER: 18-60072-CR-BLOOM-001
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 240 months. This sentence consists of 120 months as to Count 1 and 120 months as to Count 2,
to be served consecutively to Count 1.
The court makes the following recommendations to the Bureau of Prisons: that the defendant be
designated to a South Florida facility.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 3 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 7

DEFENDANT: PETER ROBERT BOBAL
CASE NUMBER: 18-60072-CR-BLOOM-001
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of life as both Counts 1 and 2 to
be served concurrently with each other.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance
with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
6. The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted
of a felony, unless granted permission to do so by the probation officer;
10.The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
11.The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
12.The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
13.As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 4 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 7

DEFENDANT: PETER ROBERT BOBAL
CASE NUMBER: 18-60072-CR-BLOOM-001
SPECIAL CONDITIONS OF SUPERVISION
Adam Walsh Act Search Condition - The defendant shall submit to the U.S. Probation Officer conducting
periodic unannounced searches of the defendant’s person, property, house, residence, vehicles, papers,
computer(s), other electronic communication or data storage devices or media, include retrieval and copying of
all data from the computer(s) and any internal or external peripherals and effects at any time, with or without
warrant by any law enforcement or probation officer with reasonable suspicion concerning unlawful conduct or a
violation of a condition of probation or supervised release. The search may include the retrieval and copying of
all data from the computer(s) and any internal or external peripherals to ensure compliance with other supervision
conditions and/or removal of such equipment for the purpose of conducting a more thorough inspection; and to
have installed on the defendant’s computer(s), at the defendant’s expense, any hardware or software systems to
monitor the defendant’s computer use.
Computer Modem Restriction - The defendant shall not possess or use a computer that contains an internal,
external or wireless modem without the prior approval of the Court.
Computer Possession Restriction - The defendant shall not possess or use any computer; except that the
defendant may, with the prior approval of the Court, use a computer in connection with authorized employment.
Employer Computer Restriction Disclosure - The defendant shall permit third party disclosure to any employer or
potential employer, concerning any computer-related restrictions that are imposed upon the defendant.
Mental Health Treatment - The defendant shall participate in an approved inpatient/outpatient mental health
treatment program. The defendant will contribute to the costs of services rendered (co-payment) based on ability
to pay or availability of third party payment.
No Contact with Minors - The defendant shall have no personal, mail, telephone, or computer contact with
children/minors under the age of _18___ or with the victim.
No Contact with Minors in Employment - The defendant shall not be employed in a job requiring contact with
children under the age of __18__ or with the victim.
No Involvement in Youth Organizations - The defendant shall not be involved in any children’s or youth
organization.
Permissible Computer Examination - The defendant shall submit to the U.S. Probation Officer conducting
periodic unannounced examinations of the defendant’s computer(s) equipment which may include retrieval and
copying of all data from the computer(s) and any internal or external peripherals to ensure compliance with this
condition and/or removal of such equipment for the purpose of conducting a more thorough inspection; and to
have installed on the defendant’s computer(s), at the defendant’s expense, any hardware or software systems to
monitor the defendant’s computer use.
Restricted from Possession of Sexual Materials - The defendant shall not buy, sell, exchange, possess, trade, or
produce visual depictions of minors or adults engaged in sexually explicit conduct. The defendant shall not
correspond or communicate in person, by mail, telephone, or computer, with individuals or companies offering to
buy, sell, trade, exchange, or produce visual depictions of minors or adults engaged in sexually explicit conduct.
Sex Offender Registration - The defendant shall comply with the requirements of the Sex Offender Registration

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 5 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 7

and Notification Act (42 U.S.C. § 16901, et seq.) as directed by the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in which he or she resides, works, is a student, or was convicted of a
qualifying offense.
Sex Offender Treatment - The defendant shall participate in a sex offender treatment program to include
psychological testing and polygraph examination. Participation may include inpatient/outpatient treatment, if
deemed necessary by the treatment provider. The defendant will contribute to the costs of services rendered
(co-payment) based on ability to pay or availability of third party payment.

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 6 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 7

DEFENDANT: PETER ROBERT BOBAL
CASE NUMBER: 18-60072-CR-BLOOM-001
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$200.00

Fine
$0.00

Restitution
$0.00

If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE

TOTAL LOSS*

RESTITUTION ORDERED

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
**Assessment due immediately unless otherwise ordered by the Court.

Case 0:18-cr-60072-BB Document 95 Entered on FLSD Docket 03/12/2019 Page 7 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 7 of 7

DEFENDANT: PETER ROBERT BOBAL
CASE NUMBER: 18-60072-CR-BLOOM-001
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A. Lump sum payment of $200 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and
the U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shall file a preliminary order of forfeiture within 3 days.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

